   INSTITUTE FOR SYSTEMS BIOLOGY
            1441 N. 34th STREET
      SEATTLE, WASHINGTON 98103
    NATIONAL SCIENCE FOUNDATION
            AWARD NUMBERS
    EF-0313754, ESI-0224574, DBI-0096750
           FINANCIAL AUDIT OF
       FINANCIAL SCHEDULES AND
INDEPENDENT AUDITORS’ REPORT FOR THE PERIOD
    MAY 1, 2001 TO DECEMBER 31, 2004




                              CONRAD AND ASSOCIATES, L.L.P.
                                     Certified Public Accountants
                                    2301 Dupont Drive, Suite 200
                                          Irvine, California 92612
        XXXXXXXXXXXXXXXXXXXXXXXXX




             XXXXXXXXXXXXXX

XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXX
                                            INSTITUTE FOR SYSTEMS BIOLOGY


                                                               Table of Contents

                                                                                                                                                      Page

Executive Summary:
  Background ......................................................................................................................................     1
  Audit Objectives, Scope and Methodology......................................................................................                         2
  Summary of Audit Results ...............................................................................................................              2
  Exit Conference................................................................................................................................       5

Compliance and Internal Controls:
  Report on Compliance and Other Matters on Internal Control over Financial Reporting
   Based on an Audit Performed in Accordance with Government Auditing Standards ...................                                                     6

Financial Schedules and Supplemental Information:
  Independent Auditors’ Report on Financial Schedules ....................................................................                             13
  Schedule A-1 - Schedule of Award Costs (Award No. EF-0313754)..............................................                                          15
  Schedule A-2 - Schedule of Award Costs (Award No. ESI-0224574) ...........................................                                           16
  Schedule A-3 - Schedule of Award Costs (Award No. DBI-0096750) ...........................................                                           17
  Schedule B - Schedules of Questioned Costs...................................................................................                        18
  Schedule C - Summary Schedules of Awards Audited and Audit Results ......................................                                            22
  Notes to Financial Schedules ..........................................................................................................              24

Appendix - Awardee’s Comments to Report
EXECUTIVE SUMMARY
BACKGROUND

We audited funds awarded by the National Science Foundation (NSF) to the Institute for Systems
Biology (ISB) under grant numbers EF-0313754 for the period September 1, 2003 to December 31,
2004; ESI-0224574 for the period January 16, 2002 to December 31, 2004; and, DBI-0096750 for the
period May 1, 2001 to April 30, 2003. ISB, as a Federal awardee, is required to follow the cost
principles specified in Office of Management and Budget (OMB) Circular A-122, Cost Principles for
Non-Profit Organizations and the Federal administrative requirements contained in OMB Circular A-
110, Uniform Administrative Requirements for Grants and Agreements with Institutions of Higher
Education, Hospitals, and Other Non-Profit Organizations.

The Institute for Systems Biology (ISB) is a non-profit entity established in 1999 and located in Seattle,
Washington. ISB is an internationally renowned research institution dedicated to the study and
application of systems biology through the integration of many sciences including biology, chemistry,
physics, computation, mathematics and medicine. ISB’s goal is to unravel the mysteries of human
biology to identify strategies for predicting and preventing diseases such as cancer, diabetes, and AIDS.
In addition to this, ISB has made a strong commitment to education programs designed to enable
schools and districts to have the capacity to produce scientifically literate and capable students by
creating and supporting a statewide infrastructure, comprised of collaborative and regional partnerships
among schools, districts, and community partnerships that will train and support science educators.

Descriptions of the NSF awards we audited are as follows:

EF-0313754 – The Oxygen-Stress Response in the Extremophile Halobacterium sp. NRC-1. NSF
awarded grant number EF-0313754 to ISB for the period September 1, 2003 to August 31, 2005 in the
amount of $1,749,999 for the purpose of evaluating the global oxygen-response mechanisms in
Halobacterium sp. NRC-1 by dissecting the biological networks that mediate the oxygen-stress response.
The project also included the development of inquiry based supplemental high school teaching modules
and materials to assist students in learning the modern collaborative approaches of systems biology.
Cumulative disbursements for grant number EF-0313754 reported to NSF through December 31, 2004
(the end of the audit period) were $564,053. ISB was not required to provide cost sharing for this
award.

ESI-0224574 – Family Science: Expanding Community Support for Inquiry-Based Science
Education. NSF awarded grant number ESI-0224574 to ISB for the period January 16, 2002 to
December 31, 2005 in the amount of $748,383. The purpose of this award was to develop a five-year
plan for teaching youth and families in the Seattle school district the skill of understanding science
processes. Grant activities included teacher training workshops, science fairs, science exploration
programs, inquiry science conferences, and community celebrations of family science programs. The
program targeted grades K-5 and included a five-year plan to extend the program to middle and high
school students. Cumulative disbursements for grant number ESI-0224574 reported to NSF through
December 31, 2004 (the end of the audit period) were $372,380. ISB agreed to provide $353,215 of cost
sharing for this award. Cost sharing expenses claimed as of December 31, 2004 were $377,330.


                                                    1
DBI-0096750 – Highly-Efficient and Compact Wave Guide Scanner Capable of Monitoring
Microarray Hybridization Kinetics. NSF awarded grant number DBI-0096750 to ISB for the period
May 1, 2001 to April 30, 2003 in the amount of $759,493. The purpose of this award was to support the
development of a DNA-array scanner to detect fluorescence signals by means of a novel wave guide
collector. The use of DNA array hybridization was widely adopted by biologists and biomedical
researchers as a technique for detection of mutations in DNA and for monitoring of gene expression.
Cumulative disbursements for grant number DBI-0096750 reported to NSF through April 30, 2003 were
$759,493. ISB was not required to provide cost sharing for this award.



AUDIT OBJECTIVES, SCOPE AND METHODOLOGY

The objectives of our audit were to:

1. Determine if ISB’s Schedules of Award Costs present fairly, in all material respects, costs claimed
   on the Federal Cash Transaction Reports (FCTR), and if costs claimed, including cost sharing, are
   in conformity with NSF award terms and conditions.

2. Identify matters concerning instances of noncompliance with laws, regulations, and the provisions of
   the award agreements pertaining to NSF awards and weaknesses in ISB’s internal control over
   financial reporting that could have a direct and material effect on the Schedules of Award Costs and
   ISB’s ability to properly administer, account for, and monitor its NSF awards.


We conducted our audit in accordance with auditing standards generally accepted in the United States of
America, Government Auditing Standards (2003 Revision) issued by the Comptroller General of the
United States, and the National Science Foundation Audit Guide (September 1996), as applicable.
These standards and the NSF Audit Guide require that we plan and perform the audit to obtain
reasonable assurance about whether amounts claimed to NSF as presented in the Schedules of Award
Costs (Schedules A-1 through A-3) are free of material misstatements. An audit includes examining, on
a test basis, evidence supporting the amounts and disclosures in the Schedules of Award Costs. An audit
also includes assessing the accounting principles used and the significant estimates made by ISB, as well
as evaluating the overall financial schedule presentation. We believe that our audit provides a
reasonable basis for our opinion.



SUMMARY OF AUDIT RESULTS

An audit was performed on the costs claimed on the financial reports submitted to NSF by ISB on NSF
award numbers EF-0313754, ESI-0224574 and DBI-0096750, as well as cost sharing provided on NSF
award ESI-0224574. These costs and the costs questioned as a result of our audit are shown in the
Schedules of Award Costs (Schedules A-1 through A-3) and are summarized as follows:




                                                   2
                                   Funding                              Claimed
         NSF Award No.              Source          Award Budget         Costs        Questioned Costs
    EF - 0313754                 NSF-Funded        $ 1,749,999            564,053          6,737
                                 Total Project     $ 1,749,999            564,053          6,737

    ESI - 0224574                NSF-Funded        $   748,383            372,380            922
                                 Cost Sharing          353,215            377,330              -
                                 Total Project     $ 1,101,598            749,710            922

    DBI - 0096750                NSF-Funded        $    759,493           759,493         16,062
                                 Total Project     $    759,493           759,493         16,062

Except for the $23,721 in questioned salary, wage, fringe benefits and indirect costs described below,
we determined that the costs claimed by ISB appear fairly stated and are allowable, allocable, and
reasonable for all three NSF awards.

Specifically, we questioned $16,062 of salary, fringe benefits, and the related indirect costs because an
employee had been charged 100% to NSF award number DBI-0096750 even though that employee’s
certifications had only indicated a 32% level of effort was performed on the NSF grant. The remaining
$7,659 of questioned indirect costs resulted from ISB misclassifying participant support costs as
consultant costs in its accounting system for two NSF awards and erroneously charging indirect costs for
the misclassified participant support costs.

Our audit noted that ISB had internal control deficiencies that contributed to the questioned costs for
salary and wages and overcharged indirect costs. Additionally, although we did not question any costs,
we noted an internal control deficiency related to the administration and monitoring of cost sharing.
Specifically:

   •   ISB did not have adequate procedures to obtain certifications or personnel activity reports to
       support salary, wages and fringe benefit charges made to its NSF awards during the period
       October 2003 through late 2004. This internal control deficiency was initially reported in ISB’s
       2003 Fiscal Year A-133 Single Audit Report. In response to this audit finding, ISB executed
       employee certification and personnel activity report procedures and retroactively distributed
       certifications and personnel activity reports, i.e., time sheets, which were completed by
       employees and approved by the appropriate ISB budget managers. We noted that one employee’s
       salary was charged 100% to an NSF award over three pay periods even though that employee’s
       certifications had only indicated a 32% level of effort was performed on the NSF grant.

   •   ISB lacked a system to identify, account for, and monitor the cost sharing it contributed to NSF
       award ESI-0224574. In addition, ISB did not maintain employee certifications and personnel
       activity reports to support the salary and fringe benefit costs it charged to its NSF award as cost
       share. ISB’s cost share consists of 100% personnel costs. Therefore, ISB was unable to monitor
       the cost-sharing expenditures it claimed to NSF to ensure those costs were allowable and

                                                    3
       allocable to the award, and were not obtained from another Federal source or claimed on another
       Federal award. While we were able to perform alternative audit procedures to verify the cost
       sharing claimed, the lack of a system to adequately record, track, and monitor cost sharing could
       result in ISB claiming future cost sharing expenditures that may not be allowable or allocable to
       its NSF award.

   •   ISB lacked policies and procedures for ensuring that participant support costs were classified
       correctly in its accounting system. During our audit, we conducted a comparison of budget to
       actual expenditures for NSF approved program expense categories. We noted a $20,382 increase
       over the NSF approved budget in costs incurred for consulting expenses and a decrease of the
       same amount in expenses for participant support and costs. The difference resulted from ISB
       inadvertently coding stipend payments as consulting costs in its accounting system. This
       miscoding of participant support costs as consultant fees resulted in ISB charging its NSF grant
       for unallowable indirect costs. Failure to properly track and record participant support costs
       limits ISB’s ability to ensure that participant support funds are not spent on any other types of
       costs without prior NSF approval.

We recommend that NSF’s Directors of DIAS and DGA ensure that ISB (a) adhere to its policy to
obtain certifications and personnel activity reports, i.e., time sheets, and to require budget managers to
review and approve such reports on a timely basis; (b) develop policies and procedures to record and
track all cost sharing expenditures in accordance with OMB Circulars, including implementing a time
and effort reporting system for employees claimed as cost share; and, (c) develop and implement written
policies and procedures to ensure stipends costs are properly classified as participant support in its
accounting system.

The awardee responded to the draft audit report on March 24, 2006. In its response, the awardee stated
that it concurred with the findings that it 1) lacked certification and personnel activity reports for the
period October 2003 through late 2004, 2) lacked certification and personnel activity reports during the
audit period for cost sharing amounts that it had claimed were provided by ISB Education Outreach
Program Administrative Staff and, 3) lacked policies and procedures to ensure that participant support
costs were classified properly in its accounting system. The awardee indicated that it has implemented
several actions to address these findings. The awardee disagreed with the finding that it overcharged the
NSF Compact Waveguide Scanner Project for salaries, fringe and indirect costs. The awardee also
stated that the wording in the finding related to a lack of system to identify, account for, and monitor
cost sharing was misleading and inaccurately suggested that it lacked any system whatsoever for
monitoring its cost sharing activity for its NSF grants.

The findings in this report should not be closed until NSF has determined that all the recommendations
have been adequately addressed and the proposed corrective actions have been satisfactorily
implemented. ISB’s response has been included in its entirety in Appendix A.

For a complete discussion of audit findings, refer to the Independent Auditor’s Report on Compliance
and Other Matters and on Internal Control Over Financial Reporting.




                                                    4
EXIT CONFERENCE

We conducted an exit conference on July 1, 2005 at ISB’s offices. We discussed preliminary findings
and recommendations noted during the audit. Representing ISB was:


       Name                                     Title

       XXXXX                                     XXXXXXXXXXXXXXXX

       Representing Conrad and Associates, L.L.P.was:


       Name                                     Title

       XXXXXXX                                   Audit Manager




                                                 5
COMPLIANCE AND INTERNAL CONTROLS
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230




                REPORT ON COMPLIANCE AND OTHER MATTERS AND ON
                  INTERNAL CONTROL OVER FINANCIAL REPORTING
                  BASED ON AN AUDIT PERFORMED IN ACCORDANCE
                     WITH GOVERNMENT AUDITING STANDARDS


We audited costs claimed as presented in the Schedules of Award Costs (Schedules A-1 through A-3),
which summarize financial reports submitted by Institute for Systems Biology (ISB) to the National
Science Foundation (NSF) and claimed cost sharing for the awards and periods listed below and have
issued our report thereon dated July 1, 2005:

             Award Number                   Award Period                    Audit Period

              EF – 0313754                09/01/03 – 08/31/05            09/01/03 – 12/31/04
              ESI – 0224574               01/16/02 – 12/31/05            01/16/02 – 12/31/04
              DBI – 0096750               05/01/01 – 04/30/03            05/01/01 – 04/30/03

We conducted our audit of the Schedules of Award Costs as presented in Schedules A-1 through A-3 in
accordance with auditing standards generally accepted in the United States of America; Government
Auditing Standards, issued by the Comptroller General of the United States (2003 revision); and, the
National Science Foundation Audit Guide (September 1996), as applicable. These standards and the
National Science Foundation Audit Guide require that we plan and perform the audit to obtain
reasonable assurance that the financial schedules are free of material misstatement.

COMPLIANCE WITH LAWS AND REGULATIONS AND OTHER MATTERS

Compliance with applicable Federal laws, regulations, and NSF award terms and conditions is the
responsibility of ISB’s management. As part of obtaining reasonable assurance about whether ISB’s
financial schedules are free of material misstatement, we performed tests of ISB’s compliance with
certain provisions of applicable laws, regulations, and NSF award terms and conditions, noncompliance
with which could have a direct and material effect on the determination of financial schedule amounts.
However, providing an opinion on compliance with those provisions is not an objective of our audit and,
accordingly, we do not express such an opinion. The results of our tests of compliance disclosed
instances of noncompliance that are required to be reported under Government Auditing Standards and
the National Science Foundation Audit Guide and are described in Finding Nos. 1 through 3, below.
                                                  6
INTERNAL CONTROL OVER FINANCIAL REPORTING

ISB management is responsible for establishing and maintaining internal control. In fulfilling this
responsibility, estimates and judgments made by management are required to assess expected benefits
and related costs of internal control policies and procedures. The objectives of internal control are to
provide management with reasonable, but not absolute, assurance that assets are safeguarded against
loss from unauthorized use or disposition, and that transactions are executed in accordance with
management’s authorization and recorded properly to permit the preparation of financial schedules in
accordance with accounting principles prescribed by the NSF. Because of inherent limitations in any
internal control, misstatements due to errors or fraud may nevertheless occur and not be detected. Also,
projection of any evaluation of internal control to future periods is subject to the risk that procedures
may become inadequate because of changes in conditions, or that the effectiveness of the design and
operation of policies and procedures may deteriorate.

In planning and performing our audit of the Schedules of Award Costs (Schedules A-1 through A-3) for
the period May 1, 2001 to December 31, 2004, we considered ISB’s internal control over financial
reporting in order to determine our auditing procedures for the purpose of expressing our opinion on the
financial schedules and not to provide an opinion on the internal control over financial reporting.
Accordingly, we do not express such an opinion.

We noted, however, certain matters described below involving the internal control over financial
reporting and its operation that we consider to be reportable conditions under standards established by
the American Institute of Certified Public Accountants. Reportable conditions involve matters coming
to our attention relating to significant deficiencies in the design or operation of the internal control over
financial reporting that, in our judgment, could adversely affect ISB’s ability to record, process,
summarize, and report financial data consistent with management’s assertions in the financial schedules.
Reportable conditions we identified are described in Finding Nos. 1 through 3, below.

A material weakness is a reportable condition in which the design or operation of one or more of the
internal control elements does not reduce, to a relatively low level, the risk that misstatements caused by
error or fraud in amounts that would be material in relation to the financial schedules being audited may
occur and not be detected within a timely period by employees in the normal course of performing their
assigned functions. Our consideration of internal control over financial reporting would not necessarily
disclose all matters related to internal control over financial reporting that might be reportable conditions
and, accordingly, would not necessarily disclose all reportable conditions that are also considered to be
material weaknesses. We do not consider any of the reportable conditions described below to be
material weaknesses.




                                                     7
FINDINGS AND RECOMMENDATIONS

Finding 1. Lack of Certifications and Personnel Activity Reports for the Period October 2003
through Late 2004

ISB did not obtain certifications and personnel activity reports as required by Federal regulations and
NSF for the period October 2003 through late 2004. In addition, ISB overcharged $9,126 in salary and
fringe benefit costs to its NSF Compact Wave grant because 100% of an employee’s time was charged
to the project, however the employee’s certification indicated that only 32% labor effort was performed
on the NSF award.

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A, Section 8,
Compensation For Personal Services, Paragraph M, Support of Salaries and Wages, states that, to be
allowable, charges to Federal awards for salaries and wages, whether treated as direct or indirect costs,
must be based on documented payrolls approved by responsible official(s) of the organization and
supported by personnel activity reports. When employees are expected to work solely on a single
Federal award or cost objective, charges for their salaries and wages must be supported by periodic (at
least semi-annually) certifications indicating that the employees worked only on that program. The
certifications should be signed by the employee or supervisory official having direct knowledge of the
work performed by the employee. When employees work on multiple activities or cost objectives, a
distribution of salaries or wages must be supported by personnel activity reports that reflect after-the-
fact distribution of the actual activity of each employee; account for the total activity for which each
employee is compensated; be prepared at least monthly; and, be signed by the employee.

ISB did not obtain certifications and personnel activity reports to support salary, wage and fringe benefit
charges made to its NSF awards during the period October 2003 through late 2004. ISB’s policy states
that budget managers are responsible for daily research oversight, award expense approvals, and labor
effort reporting review and approval to ensure all staff complete time sheets that identify the number of
hours worked by project and that time charged to an award is accurate.

This internal control deficiency was initially reported in ISB’s 2003 Fiscal Year A-133 Single Audit
Report. In response to this audit finding, ISB executed employee certification and personnel activity
report procedures and retroactively completed time sheets, including approvals from the appropriate
budget managers. However, our audit testing of ISB salary expenses noted that one employee’s salary
was charged 100% to an NSF award over three pay periods even though that employee’s certification
indicated a 32% level of effort was performed on the NSF grant.

ISB indicated its time sheets were not distributed to employees for completion from October 2003
through late 2004 because it was developing and implementing an on-line time and effort system. Thus,
employee time sheets were not completed by ISB personnel because of difficulties with its new
personnel activity reporting system. Because time sheets were retroactively completed, ISB believes its
budget manager inadvertently made an error when approving labor charges to the NSF grant because the
budget manager did not remember that the employee was originally working full time on the NSF grant.

ISB’s failure to follow its policy to obtain completed time sheets limited its ability to ensure that salary
amounts charged to its NSF grant were accurate and properly documented. Therefore we questioned the
$9,126 in salary, wage, and fringe benefit costs and the related $6,936 of indirect costs because the
documentation reflected that the employee only performed 32 percent rather than 100 percent of effort
on the NSF award.

                                                     8
Recommendation 1:

We recommend that NSF’s Directors of DIAS and DGA ensure that ISB adhere to its policy to obtain
certifications and personnel activity reports (i.e., timesheets) and require budget managers to review and
approve such reports on a timely basis.

Awardee’s Comments

We concur with the finding as reported in our 2003 Fiscal Year A-133 Single Audit Report relating to
effort reporting certifications. We do not agree, however, with the finding that ISB overcharged the
NSF Compact Waveguide Scanner Project for salaries, fringe and indirect costs. We were not made
aware of discrepancies found by the auditors in effort reporting during the period from October, 2003
through late 2004 as stated in Finding 1, when the effort reports were retroactively certified. The
finding noted relates to effort reporting during May and June of 2001, when an employee’s effort
certification report claimed 32% effort but the project was billed at 100%. We reviewed the discrepancy
with both the PI of the grant and the employee to which this relates and provided the auditors with
written confirmation from both individuals that effort report had been correctly stated during the pay
periods in question. The employee had dedicated 100% of his effort to the NSF Compact Waveguide
Scanner project during this time period and was charged appropriately to the grant although the effort
report showed him incorrectly allocated at 32%. The auditors had indicated that they were satisfied with
our responses and documentation of the error in effort reporting during the exit conference at the
conclusion of their fieldwork and the issue appeared to have been resolved at that time and we were
surprised to see it resurface in the audit report. We are confident that salary, fringe and indirect costs
that were charged the grant are accurate and valid and represent the correct amount of effort dedicated
by our employees on the project.

Auditor’s Response

We concur with ISB that no errors were noted in the time and effort reports for the period of October
2003 through late 2004 and that the questioned costs relate to pay periods in 2001, when ISB was
certifying time and effort reports on a timely basis. However, the fact remains that signed and certified
time and effort reports for three pay periods were indicating an effort level of 32%, but the grant was
still charged an effort level of 100%. We did not indicate during the exit conference that the finding
was resolved. This report finding should not be closed until this recommendation has been adequately
addressed and NSF determines that the corrective action has been satisfactorily implemented.

Finding 2. Lack of a System to Identify, Account for, and Monitor Cost Sharing

ISB lacked a system to identify, account for, and monitor cost sharing it attributed to its NSF award. In
addition, ISB did not maintain employee certifications and personnel activity reports (i.e., timesheets) to
support the salary and fringe benefit costs it charged to its NSF award as cost sharing.

NSF’s Grant Policy Manual (GPM) Section 333.6, Cost Sharing Records and Reports, and OMB
Circular A-110, Subpart C, Section .23, require grantees to maintain records of all costs claimed as cost
sharing, and states that those records are subject to audit. These regulations also state that cost-sharing
expenses must be verifiable from the recipient’s records and must not be included as contributions to
any other Federal award or funded by any other Federal award. OMB Circular A-110 Section .23, also
states that, to be accepted as part of the recipient's cost sharing, expenditures must be necessary and

                                                    9
reasonable for proper and efficient accomplishment of project or program objectives and allowable
under applicable cost principles.

While ISB’s accounting system did capture all NSF grant expenses, it did not, separately identify and
track those expenses incurred as cost sharing on behalf of the NSF award as opposed to other Federal
awards. All of ISB’s cost share expenses are for salary and wages.

ISB did not utilize employee certifications and personnel activity reports (i.e., time sheets) to track
salary and fringe benefit costs claimed as cost sharing. Instead, cost sharing expenditures related to the
NSF award were compiled from payroll data each pay period. ISB personnel reviewed the data and
determined which employees had worked on NSF grants. Based on discussions, an amount of cost share
was calculated. However, there are no employee certifications or personnel activity reports to support
the amount of calculated cost share. Because ISB did not maintain appropriate documentation to
support the labor charges it claimed as cost share, we were required to perform alternative procedures to
assess the reasonableness and propriety of the claimed cost share. We conducted interviews with ISB
staff working on the NSF award. These individuals stated that they performed duties in accordance with
the award agreements, which, in the absence of certifications and personnel activity reports, satisfied our
concerns that the labor costs for cost share were related to the NSF award in the amounts claimed.

Nonetheless, although our review of cost sharing expenditures noted no exceptions, ISB did not have an
adequate system to identify, account for, and monitor the cost share it charged to its NSF grant.
Therefore, ISB was unable to monitor the cost sharing expenditures it claimed to NSF to ensure those
costs were allowable or allocable to its NSF grant and were not obtained from another Federal source or
claimed on another Federal award. ISB acknowledged that cost sharing is a new experience and their
accounting department is in the process of developing policies and procedures to record, track, and
review costs sharing data in order to ensure costs are allowable and allocable to its NSF award.

Recommendation 2:

We recommend that NSF’s Directors of DIAS and DGA ensure that ISB develop policies and
procedures to record and track all cost sharing expenditures in accordance with OMB Circulars,
including implementing a certification and personnel activity reporting system for employees claimed as
cost share.

Awardee’s Comments

The wording of the finding is misleading and inaccurately suggests that ISB lacked any system
whatsoever for monitoring cost sharing activity. The cost sharing tracking component found to be
inadequate, which we concur with, relates to the lack of effort certification during the audit period for
cost sharing ISB had claimed was provided by ISB Education Outreach Program Administrative Staff.
Our effort certifications did not include the portions of these individuals’ time on the NSF Family
Science Grant which we had claimed as cost sharing.

Since completion of the audit, we have corrected our monthly effort reporting procedure to include any
ISB employee time claimed as cost sharing which is not otherwise recorded in the NSF Cost Sharing
Volunteer Hours Workbook.




                                                    10
Auditor’s Response

We acknowledge and concur with ISB’s reported change in policy to correct their monthly effort
reporting procedure to include employees’ time charged as cost sharing. However, ISB should establish
procedures to identify, record, and associate the cost share to the NSF award at the time the costs are
incurred and ensure that those costs are not funded by or claimed on another federal award. This report
finding should not be closed until this recommendation has been adequately addressed and NSF
determines that the corrective action has been satisfactorily implemented.

Finding 3. Lack of Policies and Procedures to Ensure Participant Support Costs are Properly
Classified in the Accounting System

ISB lacked policies and procedures to ensure that participant support costs were classified properly in its
accounting system. As a result, ISB misclassified $20,382 of participant support costs as consulting
costs in its accounting system and charged two of its NSF awards $7,659 for indirect costs related to
these misclassified participant support costs, which are unallowable award expenses.

National Science Foundation Grant General Conditions (GC-1), Article 7 – Participant Support Costs,
states that participant support costs are direct costs for items such as stipends or subsistence allowances,
travel allowances, and registration fees paid to or on behalf of participants or trainees (but not
employees) in connection with meetings, conferences, symposia or training projects. (See also GPM
Section 618.) It also states that the awardee organization must account for participant support costs
separately. Additionally, National Science Foundation Grant Policy Manual, Section 633.2 states that
no indirect costs may be charged against participant support costs and that NSF generally provides no
amounts for indirect costs for participant support.

During our audit, we conducted a comparison of budget to actual expenditures for NSF approved
program expense categories. We noted $20,382 more in expenditures for consulting costs and a
reduction in participant support costs by that same amount. Discussions with the Budget Managers for
the BE/EN GEN and Family Science awards indicated that participant support costs were potentially
incorrectly coded and claimed as consulting costs. As a result of these discussions, we conducted a
review of ISB’s detailed general ledger and noted a total of $20,382 of stipend payments that were
erroneously coded as consulting costs.

The miscoding of participant support costs as consultant fees also resulted in ISB charging Award Nos.
ESI-0224574 and DBI-0096750 for unallowable indirect costs. Thus, ISB overcharged both NSF awards
by a total of $7,659 for indirect costs. These overcharged costs resulted from ISB applying its indirect
cost rate to the participant support costs which were misclassified as consulting costs in its accounting
system.

ISB’s failure to properly track, record, and claim stipend costs as participant support costs limited ISB’s
ability to ensure that participant support funds are not spent on any other types of costs without prior
NSF approval.




Recommendation 3:

                                                    11
We recommend that NSF’s Directors of DIAS and DGA ensure that ISB develop and implement written
policies and procedures to ensure stipends paid to teachers and students are properly classified in its
accounting system.


Awardee’s Comments

ISB concurs with the finding and recommendation. Since the audit, ISB states that it has taken steps to
address the proper classification of participant support costs by educating staff in defining what costs
qualify as participant support as well as created a new account code in its general ledger which is
dedicated for NSF Participant Support and to which no indirect costs are allocated.

Auditor’s Response

We acknowledge and concur with ISB’s reported change in policy to properly identify and record
participant support costs to which no indirect costs are allocated. This report finding should not be
closed until NSF determines that the corrective action has been satisfactorily implemented.

We considered these internal control deficiencies in forming our opinion of whether Schedules A-1
through A-3 were presented fairly in all material respects, in conformity with National Science
Foundation policies and procedures, and determined that this report does not affect our report dated July
1, 2005 on the financial schedules.

This report is intended solely for the information and use of ISB’s management, the National Science
Foundation, ISB’s Federal cognizant agency, the Office of Management and Budget, and the Congress
of the United States of America and is not intended to be and should not be used by anyone other than
those specified parties.


CONRAD and ASSOCIATES, L.L.P.




Irvine, California
July 1, 2005




                                                   12
 FINANCIAL SCHEDULES AND
SUPPLEMENTAL INFORMATION
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230




             INDEPENDENT AUDITORS’ REPORT ON FINANCIAL SCHEDULES


We have audited the costs claimed by Institute for Systems Biology (ISB) to the National Science
Foundation (NSF) on the Federal Cash Transactions Reports (FCTR) for the NSF awards listed below.
In addition, we audited the amount of cost sharing claimed on Award No. ESI-0224574. The FCTRs, as
presented in the Schedules of Award Costs (Schedules A-1 through A-3), are the responsibility of ISB’s
management. Our responsibility is to express an opinion on the Schedules of Award Costs (Schedules
A-1 through A-3) based on our audit.


              Award Number                 Award Period                   Audit Period
              EF – 0313754                 09/01/03 – 08/31/05           09/01/03 – 12/31/04
              ESI – 0224574                01/16/02 – 12/31/05           01/16/02 – 12/31/04
              DBI – 0096750                05/01/01 – 04/30/03           05/01/01 – 04/30/03


Except as discussed in the following paragraph, we conducted our audit in accordance with auditing
standards generally accepted in the United States of America; Government Auditing Standards (2003
revision), issued by the Comptroller General of the United States; and, the National Science Foundation
Audit Guide (September 1996), as applicable. These standards and the National Science Foundation
Audit Guide, require that we plan and perform the audit to obtain reasonable assurance that the amounts
claimed to NSF as presented in the Schedules of Award Costs (Schedules A-1 through A-3) are free of
material misstatement. An audit includes examining, on a test basis, evidence supporting the amounts
and disclosures in the Schedules of Award Costs (Schedules A-1 through A-3). An audit also includes
assessing the accounting principles used and the significant estimates made by ISB, as well as evaluating
the overall financial schedule presentation. We believe that our audit provides a reasonable basis for our
opinion.


                                                   13
National Science Foundation
Office of Inspector General
Page Two


The Schedule of Questioned Costs (Schedule B) explains the $23,721 (1%) of total claimed NSF funds
that we have questioned for allowability. These costs include unallowable salaries and fringe benefits
and incorrectly calculated indirect costs.

Questioned costs are (1) costs for which documentation exists to show that recorded costs were
expended in violation of laws, regulations, or specific award conditions, (2) costs that require additional
support by awardee, or (3) costs that require interpretation of allowability by NSF’s Division of
Institution and Award Support (DIAS). NSF will make the final determination of cost allowability. The
ultimate outcome of this determination cannot presently be determined. Accordingly, no adjustment has
been made to costs claimed for any potential disallowance by NSF.

In our opinion, except for the $23,721 of questioned NSF-funded costs, the Schedules of Award Costs
(Schedules A-1 through A-3) referred to above present fairly, in all material respects, costs claimed on
FCTRs for the period May 1, 2001 to December 31, 2004 in conformity with the National Science
Foundation Audit Guide, NSF Grant Policy Manual, terms and conditions of the NSF awards and on the
basis of accounting described in the Notes to the Financial Schedules. These schedules are not intended
to be a complete presentation of financial position in conformity with accounting principles generally
accepted in the United States of America.

In accordance with Government Auditing Standards, and provisions of the National Science Foundation
Audit Guide, we have also issued a report dated July 1, 2005, on our tests of ISB’s compliance with
certain provisions of laws, regulations, and NSF award terms and conditions and our consideration of
ISB’s internal control over financial reporting. The purpose of that report is to describe the scope of our
testing, and not to provide an opinion on the internal control over financial reporting or on compliance.
That report is an integral part of an audit performed in accordance with Government Auditing Standards
and should be read in conjunction with this report in considering the results of our audit.

This report is intended solely for the information and use of ISB’s management, NSF, ISB’s Federal
cognizant agency, the Office of Management and Budget, and the Congress of the United States of
America and is not intended to be, and should not be used by anyone other than these specified parties.


CONRAD and ASSOCIATES, L.L.P.




Irvine, California
July 1, 2005


                                                    14
                                                                                                       SCHEDULE A-1
                                        INSTITUTE FOR SYSTEMS BIOLOGY
                                  National Science Foundation Award Number EF-0313754
                                                  Schedule of Award Costs
                                          September 1, 2003 - December 31, 2004
                                                          Interim



                               Approved        Claimed     Reclassification   Audited       Questioned       Schedule
        Cost Category           Budget         Costs (A)      of Costs        Totals          Costs          Reference
Direct costs:
   Salaries and wages         $    557,534      179,604              -          179,604            -
   Fringe benefits                 167,259       58,772              -           58,772            -
   Equipment                        19,164        9,458              -            9,458            -
   Travel                           15,000          -                -              -              -
   Participant support              24,000          -              8,864          8,864            -        B, Note B-2
   Other direct costs:
      Material and supplies        221,000       31,458               -          31,458            -
      Publication                    9,000          -                 -             -              -
      Consulting                       -         12,465            (8,864)        3,601            -        B, Note B-2
      Subcontractor                    -            -                 -             -              -
      Other direct costs               -         32,882               -          32,882            -

         Total direct costs       1,012,957     324,639               -         324,639            -

Indirect costs                     737,042      239,414               -         239,414          6,737      B, Note B-3

         Total                $ 1,749,999       564,053               -         564,053          6,737

Cost sharing                  $         -           -                 -             -              -



   (A) - The total claimed costs agrees with the total expenditures reported by the Institute for Systems
   Biology on the Federal Cash Transaction Report - Federal Share of Net Disbursements as of the quarter
   ended December 31, 2004. Claimed costs reported above are taken from the awardee's books of accounts.




                                                           14
                                                                                                        SCHEDULE A-2
                                         INSTITUTE FOR SYSTEMS BIOLOGY
                                  National Science Foundation Award Number ESI-0224574
                                                  Schedule of Award Costs
                                            January 16, 2002 - December 31, 2004
                                                           Interim



                               Approved        Claimed     Reclassification    Audited      Questioned       Schedule
        Cost Category           Budget         Costs (A)      of Costs         Totals         Costs          Reference
Direct costs:
   Salaries and wages         $     170,000     130,846              -          130,846             -
   Fringe benefits                   52,010      35,758              -           35,758             -
   Equipment                            -           -                -              -               -
   Travel                            18,000       5,453              -            5,453             -
   Participant support               81,429         -             11,518         11,518             -       B, Note B-2
   Other direct costs:
      Material and supplies           8,479       7,410              -            7,410             -
      Publication                    10,800         -                -              -               -
      Consulting                    126,107      66,677          (11,518)        55,159             -       B, Note B-2
      Subcontractor                 240,208      95,631              -           95,631             -
      Other direct costs                -        10,105              -           10,105             -

         Total direct costs         707,033     351,880               -         351,880             -

Indirect costs                       41,350      20,500               -          20,500            922      B, Note B-3

         Total                $     748,383     372,380               -         372,380            922

Cost sharing                  $     353,215     377,330               -         377,330             -



   (A) - The total claimed costs agrees with the total expenditures reported by the Institute for Systems
   Biology on the Federal Cash Transaction Report - Federal Share of Net Disbursements as of the quarter
   ended December 31, 2004. Claimed costs reported above are taken from the awardee's books of accounts.




                                                           15
                                                                                           SCHEDULE A-3
                                INSTITUTE FOR SYSTEMS BIOLOGY
                         National Science Foundation Award Number DBI-0096750
                                         Schedule of Award Costs
                                       May 1, 2001 - April 30, 2003
                                                   Final



                                      Approved            Claimed          Questioned           Schedule
         Cost Category                 Budget             Costs (A)          Costs              Reference
Direct costs:
   Salaries and wages             $        235,373           319,834              7,215        B, Note B-1
   Fringe benefits                          70,612            84,709              1,911        B, Note B-1
   Equipment                                59,208            16,268                -
   Travel                                    2,000               543                -
   Participant support                         -                 -                  -
   Other direct costs:
      Material and supplies                 47,853            17,038                 -
      Publication                            2,000               -                   -
      Consulting                               -                 -                   -
      Subcontractor                            -                 -                   -
      Other direct costs                    40,051               163                 -

         Total direct costs                457,097           438,555              9,126

Indirect costs                             302,396           320,938              6,936        B, Note B-1

         Total                    $        759,493           759,493             16,062

Cost sharing                      $             -                  -                 -



   (A) - The total claimed costs agrees with the total expenditures reported by the Institute for Systems
   Biology on the Federal Cash Transaction Report - Federal Share of Net Disbursements as of the
   quarter ended June 30, 2003. Claimed costs reported above are taken from the awardee's books of
   accounts.




                                                              16
                                                                                    SCHEDULE B

                            INSTITUTE FOR SYSTEMS BIOLOGY
                           National Science Foundation Award Numbers:
                             EF–0313754, ESI-0224574, DBI-0096750
                                   Schedule of Questioned Costs
                             From May 1, 2001 to December 31, 2004


Note B-1   Salaries and Wages

           ISB lacked adequate procedures to ensure that employee certifications and personnel
           activity reports (i.e., time sheets) were completed as required by Federal regulations and
           NSF for the period October 2003 through late 2004. As a result, ISB overcharged $9,126
           in salary and fringe benefit costs to its NSF Compact Wave grant because 100% of an
           employee’s time was charged to the project even though that employee only provided
           32% labor effort to the award.

           ISB indicated its time and effort reports were not distributed from October 2003 through
           late 2004 to ISB employees for completion because it was developing and implementing
           an on-line time and effort system. Thus, employee certifications and personnel activity
           reports (i.e., time sheets) were not completed by ISB personnel because of difficulties
           with its new personnel activity reporting system. Time certifications (i.e., time sheets)
           were retroactively completed, however, ISB believes its budget manager inadvertently
           made an error when certifying personnel activity reports and did not remember that the
           employee was originally working full time on the NSF grant but later changed his level
           of effort on the NSF award to 32%. (See Finding and Recommendation No. 1 on the
           Report on Compliance and Other Matters and on Internal Control Over Financial
           Reporting.)

           Grant DBI-0096750 (Compact Wave)

                                                                     Questioned          Total
                 Pay         Claimed     Amount      Questioned      Fringe Costs      Questioned
                 Date        Amount     per Audit      Salary            (A)             Costs
               08/14/01      $ XXX       $ XXX        $ XXX          $ XX               $ 3,750
               08/31/01         XXX         XXX          XXX              XX              2,688
               09/14/01         XXX         XXX          XXX             XX               2,688
                  Totals     $ 10,610    $ 3,395       $ 7,215        $ 1,911           $ 9,126

              (A) – Fringe rate of 26.48% was based on total claimed fringe costs divided by total
              salary costs claimed.




                                               18
                                                                           SCHEDULE B

               INSTITUTE FOR SYSTEMS BIOLOGY
              National Science Foundation Award Numbers:
                EF–0313754, ESI-0224574, DBI-0096750
                      Schedule of Questioned Costs
                From May 1, 2001 to December 31, 2004



In addition, $6,936 of indirect costs has been questioned as a result of the questioned
salary and fringe costs.

 $ 9,126 Questioned salary and fringe benefit costs
    76% Approved indirect cost rate
 $ 6,936 Questioned indirect costs


Awardee’s Response

We concur with the finding as reported in our 2003 Fiscal Year A-133 Single Audit
Report relating to effort reporting certifications. We do not agree, however, with the
finding that ISB overcharged the NSF Compact Waveguide Scanner Project for salaries,
fringe and indirect costs. We were not made aware of discrepancies found by the
auditors in effort reporting during the period from October, 2003 through late 2004 as
stated in Finding 1, when the effort reports were retroactively certified. The finding
noted relates to effort reporting during May and June of 2001, when an employee’s effort
certification report claimed 32% effort but the project was billed at 100%. We reviewed
the discrepancy with both the PI of the grant and the employee to which this relates and
provided the auditors with written confirmation from both individuals that the effort
report had been incorrectly stated during the pay periods in question. The employee had
dedicated 100% of his effort to the NSF Compact Waveguide Scanner project during this
time period and was charged appropriately to the grant although the effort report showed
him incorrectly allocated at 32%.

Auditor’s Response

We concur with ISB in that no errors were noted in the time and effort reports for the
period of October 2003 through late 2004 and that the questioned costs relates to pay
periods in 2001 when ISB was certifying time and effort reports on a timely basis.
However, the fact remains that signed and certified time and effort reports for three pay
periods were indicating an effort level of 32%, but the grant was still charged an effort
level of 100%. Discussions held during the audit indicated that the time and effort
reports lead to the payroll distribution, yet this over charge went undetected for three pay
periods. As such, the finding remains unchanged.




                                     19
                                                                                     SCHEDULE B

                          INSTITUTE FOR SYSTEMS BIOLOGY
                         National Science Foundation Award Numbers:
                           EF–0313754, ESI-0224574, DBI-0096750
                                 Schedule of Questioned Costs
                           From May 1, 2001 to December 31, 2004


Note B-2   Consulting and Participant Support Costs

           During our audit, we conducted a comparison of budget to actual expenditures for NSF
           approved program expense categories. We noted $20,382 more in expenditures for
           consulting costs and a reduction in participant support costs by that same amount.
           Discussions with the Budget Managers for the BE/EN GEN and Family Science awards
           indicated a possibility existed where participant support costs were coded and claimed as
           consulting costs. As a result of these discussions, we conducted a review of ISB’s
           detailed general ledger and noted a total of $20,382 of stipend payments that were
           erroneously classified as consulting costs. The miscoding of participant support costs as
           consulting costs resulted in ISB charging its NSF grants for unallowable indirect costs for
           participant support. The misclassified participant support amount of $20,382 is
           segregated by grant as follows:


                          Grant
                         Number           Grant Name            Amount
                       EF-0313754      BE/GEN-EN                $ 8,864
                       ESI-0224574     Family Science             11,518
                                                      Total     $ 20,382

           (See Finding and Recommendation No. 3 on the Report on Compliance and Other
           Matters and on Internal Control Over Financial Reporting.)

           Awardee’s Response

           ISB concurs with the finding and recommendation. Since the audit, we have taken steps
           to address the proper classification of participant support costs by educating staff in
           defining what costs qualify as participant support as well as the creation of a new account
           code in our general ledger which is dedicated for NSF Participant Support and to which
           no indirect costs are allocated.

           Auditor’s Response

           We acknowledge and concur with ISB’s change in policy to properly identify and record
           participant support costs to which no indirect costs are allocated.




                                               20
                                                                                     SCHEDULE B

                          INSTITUTE FOR SYSTEMS BIOLOGY
                         National Science Foundation Award Numbers:
                           EF–0313754, ESI-0224574, DBI-0096750
                                 Schedule of Questioned Costs
                           From May 1, 2001 to December 31, 2004


Note B-3   Calculation of Indirect Costs Overclaimed on Misclassified Participant Support

           As a result of the misclassification of participant support costs noted in Note B-2, ISB
           overclaimed indirect costs on its NSF awards. NSF award terms do not allow for the
           grantee to claim indirect costs on participant support costs. Therefore, $7,659 of indirect
           costs ($6,737 from EF-0313754 and $922 from ESI-0224574) have been questioned as
           follows: (See Finding and Recommendation No. 3 on the Report on Compliance and
           Other Matters and on Internal Control Over Financial Reporting.)


           Grant EF-0313754 (BE/GEN-EN)

            $ 8,864 Costs reclassified as participant support costs
               76% Approved indirect cost rate
            $ 6,737 Questioned indirect costs

           Grant ESI-0224574 (Family Sciences)

            $ 11,518 Costs reclassified as participant support costs
                  8% Approved indirect cost rate
            $    922 Questioned indirect costs


           Awardee’s Response

           ISB concurs with the finding and recommendation. Since the audit, we have taken steps
           to address the proper classification of participant support costs by educating staff in
           defining what costs qualify as participant support as well as the creation of a new account
           code in our general ledger which is dedicated for NSF Participant Support and to which
           no indirect costs are allocated.

           Auditor’s Response

           We acknowledge and concur with ISB’s change in policy to properly identify and record
           participant support costs to which no indirect costs are allocated.




                                               21
                                                                                SCHEDULE C

                      INSTITUTE FOR SYSTEMS BIOLOGY
                 Summary Schedules of Awards Audited and Audit Results
                       From May 1, 2001 to December 31, 2004

Summary of Awards Audited
Award Number              Award Period           Audit Period
EF – 0313754          09/01/03 – 08/31/05   09/01/03 – 12/31/04
ESI – 0224574         01/16/02 – 12/31/05   01/16/02 – 12/31/04
DBI – 0096750         05/01/01 – 04/30/03   05/01/01 – 04/30/03

Award Number             Type of Award                        Award Description
EF – 0313754          Grant                 Evaluate the global oxygen-response mechanisms
                                            in Halobacterium sp. NRC-1by dissecting the
                                            biological networks that mediate the oxygen-stress
                                            response.
ESI – 0224574         Grant                 To teach youth and families in the Seattle school
                                            district targeting grades K-5 with an expansion to
                                            include middle and high school students over a five
                                            year plan.
DBI – 0096750         Grant                 Development of a DNA-array scanner to detect
                                            fluorescence signals by means of a novel wave
                                            guide collector.
Summary of Questioned and Unsupported Costs by Award
                          Award        Claimed       Questioned     Unsupported
Award Number              Budget         Costs         Costs           Costs
EF – 0313754          $ 1,749,999    $ 564,053        $ 6,737           $0
ESI – 0224574             748,383       372,380           922            0
DBI – 0096750             759,493       759,493        16,062            0

Summary of Questioned Cost by Explanation
                               Questioned         Internal
        Category                  Costs           Controls        Non-Compliance
Salaries and Wages              $ XXXX              Yes                No
Fringe Benefits                   XXX               Yes                No
Equipment                          X                N/A                N/A
Travel                             X                N/A                N/A
Participant Support                X                Yes                Yes
Material & Supplies                 X               N/A                N/A
Publication                        X                N/A                N/A
Consulting                         X                Yes                Yes
Subcontractors                     X                N/A                No
Other Direct Costs                 X                 No                No
Indirect Costs                   XXXX                No                Yes
Cost Sharing                       X                Yes                No
                                            22
                                                                             SCHEDULE C
                       INSTITUTE FOR SYSTEMS BIOLOGY
                  Summary Schedules of Awards Audited and Audit Results
                        From May 1, 2001 to December 31, 2004


Summary of Non-Compliance and Internal Control Findings

                                 Non-Compliance or Internal         Material or
            Findings                      Control?                  Reportable?
Salary and Wages & Fringe        Compliance & Internal               Reportable
Benefit                          Control
Cost Sharing                     Compliance & Internal               Reportable
                                 Control
Participant Support Costs        Compliance & Internal               Reportable
                                 Control




                                           23
                             INSTITUTE FOR SYSTEMS BIOLOGY
                                   Notes to Financial Schedules
                              From May 1, 2001 to December 31, 2004


Note 1:   Summary of Significant Accounting Policies

          Accounting Basis
          The accompanying financial schedules have been prepared in conformity with National
          Science Foundation (NSF) instructions. Schedules A-1, A-2, and A-3 have been prepared
          from the reports submitted to NSF. The basis of accounting utilized in preparation of these
          reports differs from generally accepted accounting principles. The following information
          summarizes these differences:

           A. Equity
               Under the terms of the awards, all funds not expended according to the award agreement
               and budget at the end of the award period are to be returned to NSF. Therefore, the
               awardee does not maintain any equity in the award and any excess cash received from
               NSF over final expenditures is due back to NSF.

           B. Equipment
               Equipment is charged to expense in the period during which it is purchased instead of
               being recognized as an asset and depreciated over its useful life. As a result, the
               expenses reflected in the Statement of Award Costs include the cost of equipment
               purchased during the period rather than a provision for depreciation.
               The equipment acquired is owned by ISB while used in the program for which it was
               purchased or in other future authorized programs. However, NSF has the reversionary
               interest in the equipment. Its disposition, as well as the ownership of any proceeds there
               from, is subject to Federal regulations.

           C. Inventory
               Minor materials and supplies are charged to expense during the period of purchase. As a
               result, no inventory is recognized for these items in the financial schedules.

           D. Income Taxes
               ISB is a private nonprofit corporation, incorporated under the laws of the State of
               Washington. ISB is exempt from income taxes under Section 501(c)3 of the Internal
               Revenue Code. It is also exempt from Washington franchise or income tax.


          The departure from generally accepted accounting principles allows NSF to properly monitor
          and track actual expenditures incurred by the grantee. The departure does not constitute a
          material weakness in internal controls.



                                                  24
                             INSTITUTE FOR SYSTEMS BIOLOGY
                                   Notes to Financial Schedules
                              From May 1, 2001 to December 31, 2004


Note 2:   NSF Cost Sharing and Matching
          The following represents the cost share requirements and actual cost share as of December 31,
          2004:
                                 Cost Share         Actual Cost
           Award Number           Required         Share Provided        Over/(Under)
           ESI – 0224574        $ 353,215         $ 377,330             $ 24,115


Note 3:   Indirect Cost Rates

                                     Indirect
            Award Number            Cost Rate                              Base
           EF – 0313754              76.00%       Modified Total Direct Costs (Total direct salaries,
                                                  fringe benefits, materials, supplies, services, travel,
                                                  and sub awards (up to the first $25,000)
           ESI – 0224574              Fixed       A fixed amount of $41,350 was approved in the
                                                  original budget and subsequent amendments.
           DBI – 0096750             76.00%       Modified Total Direct Costs (Total direct salaries,
                                                  fringe benefits, materials, supplies, services, travel,
                                                  and sub awards (up to the first $25,000)




                                                  25
APPENDIX - AUDITEE’S COMMENTS TO
             REPORT
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL

             Internet
          www.nsf.gov/oig

           Email Hotline
           oig@nsf.gov

            Telephone
           703-292-7100

             Toll-free
          1-800-428-2189


               Fax
           703-292-9158


                 Mail
     Office of Inspector General
     National Science Foundation
    4201 Wilson Blvd., Suite 1135
        Arlington, VA 22230
